                 Atlanta Public Schools
                    210 Pryor Street
                 Atlanta, Georgia 30035


National Science Foundation Award Number ESR-9727644

                   Financial Schedules

                           and

              Independent Auditors' Reports

    For the Period September 1, 1998 to June 30, 2001
           SECTION I

INTRODUCTION AND AUDIT RESULTS
	




                       Purchases of technical software packages           $616,048
                       claimed as participant support during Fiscal
                       Year 2000 were made without the approval
                       of NSF's cognizant Program Officer as
                       required in NSF Grant Policy Manual Sec.
                       618.1.

    Questioned costs are costs for which there is documentation that the recorded costs were
    expended in violation of the law, regulations or specific conditions of the award or those costs
    which require additional support by the Awardee or which require interpretation of allowability
    by the National Science Foundation - Division of Acquisition and Cost Support (DACS). In
    Fiscal Year 2000, APS purchased technical support packages and claimed the costs incurred as
    participant support costs under the NSF award despite NSF's clear direction to the contrary.
    APS officials could not explain how this happened at the time of the audit, implying a lack of
    oversight of all actions affecting the award. Consequently, the relevant claimed costs for
    $616,048 are questioned.




                                                   2
3
          SECTION II

INDEPENDENT AUDITORS' REPORTS
7
9
  Awardee Response:

         To ensure adherence to the definition of cost sharing, the Atlanta Public Schools Project
  Director identifies local funds to support cost share related to the improvement of student
  achievement in mathematics and science.           The Project Director maintains appropriate
  documentation in the ASI records, including purchase requisitions and contractual services
  agreements, which directly relate to mathematics and science.             Local funds related to
  mathematics and science are verifiable via the APS Chief Financial Officer. The funds are not
  included as contributions for any other federally-assisted project or program. The mathematics
  and science local funds are necessary, allowable, and reasonable for accomplishment of the ASI
  objectives. The funds are not paid by the Federal Government under another award. The funds
  are provided for in the approved annual district budget. Additionally, the local funds conform to
  other Circular provisions.

  Audit Conclusion:

          The stated corrective action is responsive to the finding and recommendation.

  Finding No. 3: APS did not ensure that all its payroll documentation is adequate.

          APS requires that "all certified and managerial employees will sign-in on Form No.
  67058, Daily Register, upon arrival at their school or department. They will sign their names on
  the Register and record the time of arrival. If an employee leaves early, the employee will record
  the time of departure on the Daily Register under the `Time If Leaving Early' column." The APS
  Project Director should then review the sign-in records to certify the payroll. The payroll
  certification-is done on-line by the APS Project Director to indicate that the departmental payroll
  is authorized. The Project Director did not comply with this policy. We found that the daily sign-
  in sheets were not reviewed; a large percentage of the daily sign-in sheets were either
  unavailable or not fully completed. Because we were informed that the Project Director certified
  the time and attendance for payroll through daily communications with the 20 Model Teacher
  Leaders (MTL) appointed under the NSF award and annual certifications are obtained through
  the Personnel Department, we are not questioning the relevant payroll costs. However, we
  believe that because the Project Director certified the payroll for the staff charged to the NSF
  award without ensuring the adequacy of the required documentation, the propriety of the
  payments to MTLs aggregating $2,841,862 is not absolutely certain. APS is at risk of
  improperly authorizing and claiming costs against the award.

  Recommendation No. 3:

           We recommend that NSF's Division Directors of DACS and DGA ensure that APS
  adhere to its existing policy that requires the completion and proper review of payroll
''documentation for the staff assigned to the APS Project Director prior to certification of the
  payroll.

 Awardee Response:

         The current Project Director has implemented and monitors appropriate payroll
        en a ion procedures forfor
"' documentation                all all
                                    staff
                                        staff
                                          assigned t to
                                                signed  o him prior to certification of the payroll. These
   t
                                                       10
procedures include the utilization and review of timesheets and are in compliance with existing
APS policy.

Audit Conclusion:

       The stated corrective action is responsive to the finding and recommendation.

COMPLIANCE

        Compliance with applicable laws, regulations, and the provisions of the award applicable
to APS is the responsibility of APS' management. As part of obtaining reasonable assurance
about whether the financial schedule is free of material misstatement, we performed tests of the
APS' compliance with certain Federal laws and regulations and the provisions of the award.
However, providing an opinion on overall compliance with such provisions was not an objective
of our audit of the financial schedule. Accordingly, we do not express such an opinion. The
results of our tests of compliance disclosed the following instance of noncompliance that is
required to be reported under Government Auditing Standards and the NSF Audit Guide.

Finding No. 4: Unauthorized Use of Participant Support Funds

       Section 618.1 of NSF's Grant Policy Manual state that participant support costs are for
items such as stipends or subsistence allowances, travel allowances and registration fees paid to
or on behalf of participants or trainees (but not employees) in connection with meetings,
conferences, symposia or training projects. Funds provided for participant support may not be
used by grantees for other categories of expense without the specific prior approval of the
cognizant NSF Program Officer.

         Our audit found that APS claimed costs for the purchase of technical software packages
during FY 2000 for $616,048 as participant support costs. According to an APS Accounting
Department official, the previous Project Director informed them that the cognizant NSF
Program Officer verbally approved the purchase. However, we found that NSF's cognizant
Program Officer for the award specifically informed APS that award funds should not be used
for this purchase in a May 12, 2000 email. APS' Accounting Department claimed the purchase
under the NSF award without establishing that NSF had approved it in writing. Office of
Management and Budget (OMB) Circular A-87, the "Cost Principles for State, Local, and Indian
Tribal Governments," stated that costs under a Federal award must be adequately documented.
Consequently, we question the claimed costs for the purchase of the technical software for
$616,048.

Recommendation No. 4:

       We recommend that NSF's Division Directors of DACS and DGA ensure that APS
correct the general ledger to remove the costs for the purchase of the unauthorized technical
software packages from the NSF award records totalling $616,048 and revise its next Federal
Cash Transaction Report (FCTR) accordingly.




                                              11
    SECTION III

FINANCIAL SCHEDULES
This page has been redacted
        Refer to recommendation numbers 1 and 4 in the Independent Auditors' Report on
Internal Controls and Compliance with Laws and Regulations for additional information
concerning this finding.




                                        15
AWARDEE RESPONSE
                               Atlanta Public Schools
                              Response to ASI Auditor
                                     September 13, 2002
       Auditor                                  APS Response (cont.)
   Recommendation
We recommend that the       Internal control and review procedures have been established
Awardee establish and       and implemented to ensure that all expenses conform to the
implement internal          NSF award criteria. Proposed expenditures are carefully
control procedures that     reviewed and approved by the Project Director, Executive
require careful             Director of Teaching and Learning, Deputy Superintendent of
organizational review       Instruction, and the Financial Account Manager assigned to the
and approval of the         NSF award account. The Chief Financial Officer and
types of costs charged to   Superintendent review and approve all expenditures in excess
the NSF award to ensure     of $50,000. Additionally, the Department of Internal Audit
that all expenses           performs a periodic review of expenditures.
conform to the award as
approved by NSF.
We recommend that the       The NSF-OMB Circular A- 110 (May, 1996) sets forth
Awardee develop in          Uniform Administrative Requirements for Grants and
writing and implement a     Agreements with Institutions of Higher Education, Hospitals,
cost sharing accounting     and Other Non-Profit Organizations. It defines cost sharing
system and procedures       (Sec. .23) as "all contributions, including cash and third party
that would ensure that      in-kind" which meet seven criteria: verifiable, not included as
the types and records of    contributions for any other federally-assisted project or
cost sharing costs          program, necessary and reasonable for accomplishment of
claimed comply with         objectives, allowable, not paid by the Federal Government
NSF's cost sharing          under another award (except where authorized by statute),
requirements.               provided for in the approved budget when required by the
                            Federal awarding agency, and conform to other Circular
                            provisions.

                            To ensure adherence to the aforementioned definition of cost
                             sharing, the Atlanta Public Schools Project Director identifies
                            local funds to support cost share related to the improvement of
                            student achievement in mathematics and science. The Project
                            Director maintains appropriate documentation in the ASI
                            records, including purchase requisitions and contractual
                            services agreements, which directly relate to mathematics and
                            science. Local funds related to mathematics and science are
                            verifiable via the APS Chief Financial Officer. The funds are
                            not included as contributions for any other federally-assisted
                            project or program. The mathematics and science local funds
                            are necessary, allowable, and reasonable for accomplishment
                            of the ASI objectives. The funds are not paid by the Federal
                            Government under another award. The funds are provided for
                            in the approved annual district budget. Additionally, the local
                            funds conform to other Circular provisions.



                                             2
                              Atlanta Public Schools
                             Response to ASI Auditor
                                     September 13, 2002
We recommend that           The current Project Director has implemented and monitors
AP S management             appropriate payroll documentation procedures for all staff
ensure that the Project     assigned to him prior to certification of the payroll. These
Director adhere to          procedures include the utilization and review of timesheets and
existing APS policy that    are in compliance with existing APS policy.
require adequate payroll
documentation for the
staff assigned to him
prior to certification of
the payroll.

Thank you for your time and assistance in improving the operation and management of
the Atlanta Systemic Initiative.




cc:




                                           3
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

            Email Hotline
             oig(a@nsf.gov

             Telephone
            703-292-7100

    Toll-free Anonymous Hotline
            1-800-428-2189

                 Fax
            703-292-9158

                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                21
